IN THE SUPREME COURT OF THE UNITED STATES
No.

19--

FlonpNcr BIxuNot,
Petitioner,
v

UNrrnn SIATPS OF AMERICA
AND MICHAEL D. BIKUNDI, SR.,

Respon den ts

CERTIFICATE OF SERVICE
Pursuant to Rule 29.5 ofthe Rules of this Court, I certi$'that all parties
required to be served have been served. On February 14, 2020,I caused copies of
a Petition for a

Writ of Certiorari to the United States Court

of Appeals for the

District of Columbia Circuit to be served by first-class mail, postage prepaid,
and by electronic mail (as designated) on the following:
NoeI J. Francisco
(supremectbriefs@usdoj. gov)
Solicitor General
Office of the Solicitor General
United States Department
of Justice
950 Pennsylvania Avenue, N.W
Room 5614
Washington, D.C. 20530-0001
(202) 514-2217
Counsel for Respondent
United States of America

Steven R. Kiersh
(skiersh@aol.com)
5335 Wisconsin Avenue, N.W
Suite 440
Washington, D.C. 20015
(202) 347 -0200
Counsel for Resporudent
Michael D. Bileundi, Sr.

Andrew E. Goldsmith
Coun sel of Record for Petitioner

